WAIVER

Supreme Court of the United States °

No. 20-7011
Hemmingway Mukora Saisi ‘Ve Carolyn Murray, et al.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
© Please.enter-my appearance as Counsel of Record for-all respondents.

& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Alfaro Ortiz

 

& Iam a member of the Bar of the Supreme Court of the United States.

Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bax member.
Signature ae

=)

 

Date: February 22, 2021
Alan Ruddy
Mr. OMs. O Mrs. O Miss

Essex County Counsel>s Office

(Type or print) Name.

Firm.
i i Jr. Blvd.

Adivods 465 Dr. Martin Luther King Jr

City & State__ Newark, NJ 07102 Zip

Phone _973-621-5021

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce:

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket numher availahle
